       OFFICE OF INSPECTOR GENERAL

                                 Catalyst for Improving the Environment



Memorandum Report




        EPA Claims to Meet Drinking
        Water Goals Despite Persistent
        Data Quality Shortcomings

        Report No. 2004-P-0008


        March 05, 2004
Report Contributors:              Jill Ferguson
                                  Linda Pettit-Waldner
                                  Tim Roach
                                  Dan Engelberg




Abbreviations

EPA              Environmental Protection Agency

GPRA             Government Performance and Results Act

M/R              Monitoring and Reporting

OIG              Office of Inspector General

PWSS             Public Water Supervision System

SDWIS/FED        Safe Drinking Water Information System/Federal Version
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                         March 05, 2004

MEMORANDUM

SUBJECT:            EPA Claims to Meet Drinking Water Goals Despite Persistent Data Quality
                    Shortcomings
                    Report No. 2004-P-0008

FROM:               Kwai Chan /s/
                    Assistant Inspector General
                    Office of Program Evaluation

TO:                 Benjamin Grumbles
                    Acting Assistant Administrator
                    Office of Water


In each of the past 4 years, the Environmental Protection Agency (EPA) incorrectly reported
meeting its drinking water goal under the Government Performance and Results Act (GPRA).
The Agency reported meeting its annual performance goal for drinking water quality even
though it concurrently reported that the data used to draw those conclusions were flawed and
incomplete. In each of those years, EPA reported that it met its annual goal of 91 percent of the
population drinking water that met health-based standards. However, EPA’s own analysis,
supported by our review, indicated the correct number was unknown but less than what was
reported. We must note that this inaccuracy in reporting does not necessarily indicate a direct or
immediate threat to human health.

Purpose
We initiated this review to evaluate the “drinking water performance measure,” a key component
of EPA’s GPRA goal of “Clean and Safe Water.” The evaluation questions were: (1) how do
incomplete or inaccurate drinking water data affect the drinking water GPRA calculation; and
(2) what actions have EPA undertaken to ensure that drinking water data collected and
distributed to the public are reliable and valid?

During the preliminary research phase, we learned that the Office of Water was conducting
analyses that largely overlapped our own, and was working with States and other stakeholders to
address data quality problems. Since we already completed work on our first question but not
the second, we are reporting the results on the first and suspending our work on the second.
Details on our scope and methodology, as well as background on GPRA and drinking water
reporting, are in Appendix A.

Results
EPA has reported just meeting its annual performance goal for drinking water for fiscal years
1999 through 2002. In each of those years, EPA reported performance equaling the 91 percent
GPRA annual performance goal. However, because EPA and the Office of Inspector General
(OIG) reviews indicated that performance is less than what EPA reported, due to missing data on
violations of drinking water standards, the Agency did not in fact meet its drinking water
performance goals for these 4 years. Our assessment also mirrors statements made by the
Agency in its performance reports and elsewhere.

EPA Consistently Reported Meeting Drinking Water Goals

EPA officials and reports consistently noted that national drinking water performance goals were
being achieved. Annual performance reports, the 2003 Draft Report on the Environment, and
statements by Agency officials indicated that national drinking water quality was high and EPA
was progressing toward its goal of having 95 percent of the population drinking water that meets
health-based standards. This was also repeated by the media. Figure 1 summarizes EPA’s most
recent annual performance report about drinking water quality, showing Agency claims that it
just met its performance goal for each of the last 4 fiscal years:


                 Figure 1: EPA Reports Meeting Drinking Water Performance Goals




Source: EPA 2002 Annual Performance Report, page II-22.




                                                     2
In addition to annual performance reports, EPA portrayed its success at improving drinking water
quality through other reports and through statements by Agency officials. For example, the 2003
Draft Report on the Environment stated, “In 2002, (S)tates reported that 94 percent of the
population served by community water systems were served by systems that met all health-based
standards, up from 79 percent in 1993.”1 A July 20, 2003, statement from the Assistant
Administrator for Research and Development repeated this conclusion that, in 2002, 94 percent of
Americans were served by drinking
water that met health-based standards.
                                                Figure 2: Statement on Drinking Water Quality
Using Agency reports, the media
communicate such information to the         “Our drinking water is purer. In 2002, 94 percent of
public. For example, a June 23, 2003,       Americans were served by drinking water systems
New York Times editorial, “An               that meet our health-based standards – an increase
Environmental Report Card,” used            of 15 percent in the last decade.”
similar language in the press release
                                            Source: EPA’s June 23, 2003, Press Release
cited in Figure 2 to report that, “Fully
94 percent of Americans are served
by drinking water systems that meet federal health standards, as opposed to 79 percent 10 years
ago.” Most recently, the new Administrator’s Draft 500-Day Water Quality Plan continued using
drinking water quality projections that remained unchanged from previous claims and press
releases. The Plan stated, “(i)n 2002, 93.6 percent of the population received drinking water that
met all health-based standards. By 2015, all people served by community water systems will
receive drinking water that meets standards.”

EPA Reports Data Quality Problems While Reporting Performance Goals Met

EPA’s recent Performance Reports contain statements about the quality of the drinking water data
used to report under this performance measure. In the last three Annual Performance Reports the
Agency’s message was consistent: there are problems with the quality of data in the Safe
Drinking Water Information System/Federal Version (SDWIS/FED). These statements were
echoed in other reports, such as the 2003-2008 Strategic Plan. In that Plan, EPA reported, “the
baseline statistic of national compliance with health-based drinking water standards likely is
lower than reported.” However, EPA continued to report that drinking water performance goals
were being met. The following tables contain disclaimers related to data quality problems that
EPA has included in reports:




1
  This statistic is based on the 2002 calendar year, while the 91 percent in EPA’s 2002 annual performance is based
on the Federal fiscal year.

                                                         3
                                   Statements in EPA Annual Reports
       Report                                        Data Quality Description
 1999 Annual              There is no indication of data quality in the discussion of performance for this
 Performance Report       Annual Performance Goal.
 2000 Annual              “There are recurrent reports of discrepancies between national and state data
 Performance Report       bases . . . Given the particular need for confidence in the completeness and
                          accuracy of data about drinking water quality, EPA designated SDWIS content
                          as an Agency material weakness in 1999, under the Federal Managers’
                          Financial Integrity Act.”
 2001 Annual              A technical appendix noted under-reporting of monitoring and violations data
 Performance Report       to EPA and that “failures to monitor could mask treatment technique and MCL
                          violations.”
 2002 Annual              “The most significant data quality problem is under reporting to EPA of both
 Performance Report       monitoring and reporting violations and incomplete inventory characteristics . .
                          . failures to monitor could mask treatment technique and MCL violations. Such
                          underreporting of violations limits EPA’s ability to precisely quantify the
                          population served that are meeting health based standards.”




                                   Statements in Other EPA Reports
       Report                                        Data Quality Description
 Fiscal Year 2001         “SDWIS data quality has been problematic. It has been demonstrated that
 Annual Plan              there are discrepancies between SDWIS data and state databases. In
                          addition, utilities have pointed out specific data quality problems.”
 2003 Draft Report on “Underreporting and late reporting of CWS violations data by states to EPA
 the Environment      affect the ability to accurately report the quality of our nation's drinking water...
 (Technical Document) Based on this analysis, the agency estimated that states were not reporting
                      40 percent of all health-based violations to EPA.”
 2003-2008                “Routine data analyses of the Safe Drinking Water Information System
 Strategic Plan           (SDWIS) have revealed a degree of nonreporting of violations of health-based
                          drinking water standards… As a result of these data quality problems, the
                          baseline statistic of national compliance with health-based drinking water
                          standards likely is lower than reported.”
 Data Reliability         “If the quality of the data measured and reported to SDWIS-FED, the source of
 Analysis of the EPA      the data for the [GPRA performance] calculation, are less than 100 percent as
 SDWIS/FED and Plan       defined by this analysis, then the progress toward meeting the strategic goal
 (Draft)                  may not be as great as reported.”



The information in the previous Figures and Tables indicate that while the Agency consistently
reported meeting its drinking water performance goals, the Agency also consistently
acknowledged problems with drinking water data quality. Therefore, we believe the Agency has
wrongly reported that it met its 91 percent performance goal for the years 1999 to 2002 – the
actual number is lower by some unknown amount.




                                                      4
EPA and OIG Reviews Indicated GPRA Measure Less Than Reported

Since 2000, EPA has developed two drinking water data quality reports (with the second still in
draft form). Both reports noted problems with under-reporting, in that States did not transmit all
health-based violations and all monitoring and reporting violations into SDWIS/FED, which
houses compliance information about drinking water systems. Our analysis confirmed these data
quality problems of under-reporting of violations to health-based drinking water standards.


         EPA Reports Indicate Drinking Water Data Quality Improved But Still “Low”

        EPA has been conducting “data verifications” of drinking water data since 1991. In 2000,
        EPA issued the “Data Reliability Analysis of the EPA Safe Drinking Water Information
        System/Federal Version (SDWIS/FED)” report from data verifications conducted between
        1996 and 1998. This report identified problems with the accuracy and completeness of
        SDWIS/FED data. The followup 2003 report, currently under internal draft review,
        includes information from data verifications from 1999 to 2001.

        These two reports distinguish between“health-based” and “monitoring and reporting”
        (M/R) violations. As shown in Figure 3, the first report indicated that “data quality” for
        health-based violations at the
        community water systems (or
        “systems”) whose records were
        examined during the 1996-1998
        data verification time period was
        40 percent.2 That is, 40 out of
        every 100 health-based violations
        that should have been in
        SDWIS/FED were in
        SDWIS/FED, and 60 out of 100
        were not. In the second time
        period (1999-2001), data quality
        improved to 65 percent.
        According to EPA’s own
        assessment, this is still in the “low
        quality” range.                                                     EPA’s Data Quality Ranges
                                                                                    Low:       0 to 70%
                                                                                    Moderate: 71 to 90%
        Data quality for the monitoring                                             High:     91 to 100%

        and reporting component of
        drinking water compliance also
        improved among the communities audited – from 9 percent to 23 percent between the two
        time periods. In other words, the data quality problem for M/R was at 91 percent and has
        reduced to 77 percent for an overall improvement of 14 percent. Because the enforcement
        portion of SDWIS/FED tracks only non-compliance with drinking water regulations, the

2
 EPA has defined SDWIS/FED data quality as the percent of data that should be in SDWIS/FED that are in the
database with no discrepancies or errors.

                                                       5
monitoring and reporting violations indicate instances in which information about water
quality was not reviewed by the State to make compliance determinations. The reported
levels of health-based and monitoring and reporting data quality indicate that EPA
performance reports reflected a best-case scenario and that in all likelihood performance
was lower than reported.

EPA has recognized the data quality limitations of SDWIS/FED and its impact on the
Agency’s ability to manage the drinking water program, as well as to accurately report to
Congress and the public. In the draft 2003 Data Reliability Analysis, EPA points out that,
“Overall, the violations data that are reported to and accepted by SDWIS/FED are highly
accurate. The weak link in data quality continues to be the large number of violations that
are not reported to SDWIS/FED (as estimated by Completeness), with monitoring and
reporting data being the least complete and of very low quality.”

Recent improvements in drinking water data quality are attributed to EPA, State, and third
party efforts to identify data quality deficiencies and implement activities to remedy those
deficiencies. This has been a long-term effort, signified by the publication of reports
outlining problems with drinking water data quality and activities to fix those problems.
The 2003 Draft Data Reliability Report of SDWIS/FED noted that in 1999, a workgroup
of EPA, State, and stakeholder representatives developed a data quality action plan. Some
of the components of that action plan included setting data quality goals for SDWIS/FED,
quantify and qualify the quality of SDWIS/FED data, and take interim steps to improve
data quality.

The Draft Data Reliability Report also noted that EPA and States undertook and
completed a number of activities to reach their data quality improvement goals. Some of
those actions taken by EPA and the States included: (1) improved data entry processes,
tools, and training for regions and States; (2) improved and simplified data retrieval and
reporting tools; (3) improved data verification audit procedures; and (4) accelerated
ongoing data quality improvement activities (development of SDWIS/STATE, and
electronic reporting between utilities, labs, and States). A second data quality action plan
is being developed and implemented. When we met with EPA officials to discuss our
draft report, they told us that data quality continues to improve, as measured by the most
recent data verifications.

EPA also noted in March 2003 in the Draft Strategic Plan for 2003-2008 that it would
consider how to best classify water systems that experienced monitoring and reporting
violations. Options included (1) classifying systems with monitoring and reporting
violations as not being in compliance with health-based standards, and (2) excluding these
systems from the GPRA calculation. By doing so, the Agency would remove from its
performance reporting the systems that it cannot determine provided water that met all
health-based standards. However, the final Strategic Plan issued in September 2003
stated, “(The) Agency is currently engaged in statistical analysis to more accurately
quantify the impact of these data quality problems.”




                                          6
       During our meeting with Agency officials to discuss the draft report and these two
       options, they explained that there is a potential for water systems with no health-based
       violations to be eliminated from the GPRA calculation because of one M/R violation.
       They believe that this would distort their reporting under GPRA, and they are studying the
       issue. While we understand that this potential exists, we also believe that EPA’s current
       policy of treating systems with M/R violations as being in compliance with health-based
       standards can also distort the GPRA measure. The Agency’s 2001 and 2002 annual
       reports (see page 4) note that there is a potential for M/R violations to mask violations to
       drinking water standards.

           OIG’s Review of EPA’s Database Confirmed Agency’s Assessment

       Our review of the EPA data verification database confirmed the Agency’s conclusion that
       States did not report all health-based violations into SDWIS/FED. The actual percentage
       of people drinking water that met health-based standards in this sample was likely to be
       lower, but we cannot use the database to determine a range for the nation as a whole. This
       is because the methods used to select the 761 water systems do not support estimates for
       the nation’s approximately 54,000 community water systems.3

       In the data verification database, we observed that the error rate was high for systems with
       health-based violations to the contaminants reviewed during data verifications. Of the 71
       systems with violations for the drinking water standards that were reviewed during the
       data verifications, 17 had not been reported into SDWIS/FED.4

       Overall, the direction of errors in the reporting of health-based violations caused a
       downward bias in the drinking water performance measure among the 761 systems. This
       suggests that by utilizing incomplete results from SDWIS to report performance under
       GPRA, EPA portrayed an incorrect picture of the percentage of people drinking water that
       met all health-based standards.

       There is always potential for errors when collecting any type of information. In
       Appendix A, Figure 5 illustrates the flow of information from the water system, through
       the laboratories, and to the State and EPA. State data verifications identify errors related
       to data analysis and reporting of violations.

Conclusions
Congress, the public, and the media rely on transparent and accurate reports about drinking water
quality. The significance of this measure is that each percent of the population served by
community water systems receiving drinking water meeting all health-based standards represents
more than 2.6 million people in the United States. As EPA persistently reports meeting its
drinking water performance goal while acknowledging drinking water data quality problems, it in
fact has not accurately reported its performance to the approximately 268 million people drinking

       3
           A Community Water System serves at least 25 people or 15 service connections on a year-round basis.
       4
           Our review also indicated that 2 of the 761 systems were identified to have a health-based violation in
           SDWIS/FED when no violation actually occurred.
                                                           7
water from community water systems. EPA’s increasing candor about the limitations associated
with basing performance measures on its compliance database (SDWIS) and the fact that it
identified possible corrective actions in its 2003-2008 Draft Strategic Plan for addressing the
problems of water system monitoring and reporting violations indicate the Agency’s willingness
to consider alternative approaches for how it reports performance.

We suggest that while EPA and States continue moving forward to correct data deficiencies, the
Agency should also identify methods to better account for the impact of the “large number” (as
described in the Draft 2003 Data Reliability Report) of violations that are not reported to
SDWIS/FED. It should determine how best to account for community water systems with
monitoring and reporting violations when reporting into GPRA and adjust the measure to reflect
this. Options include those mentioned above that were described in the Draft Strategic Plan. In
order to address broader concerns over this measure, given the inherent problems utilizing
SDWIS for reporting on performance, we also suggest that in the future the Agency move toward
employing an altogether different methodology for reporting performance for this Annual
Performance Goal. One approach would be for EPA to base its future reporting on a stratified
sample of the nation’s 54,000 community water systems and audit those systems for compliance
with health-based drinking water standards. This has the potential to provide a more accurate and
transparent accounting of the nation’s drinking water quality.

Agency Comments and OIG Response
In the Agency’s February 2, 2004, response to our draft report, the Agency did not directly
acknowledge our principal finding concerning the incorrect conclusions about drinking water
performance contained in recent annual performance reports. In addition, while the Agency
agreed to continue to improve how EPA communicates health risks associated with drinking
water, no commitment to specific steps to correct the inconsistencies we had pointed out were
agreed to. Appendix B contains Agency comments, and Appendix C contains some of our
specific responses to those comments.

Based on the Agency’s comments, we made several revisions and clarifications to our report.
However, insofar as data quality within SDWIS is not the principal focus of this report, the
comments did not address our principal concern: that for 4 years, EPA has reported to Congress
and the public that it met an important annual performance goal when available evidence
indicates it did not. After reviewing EPA's comments, we continue to believe that the Agency
inappropriately claimed to have met performance goals for its drinking water program for the past
4 years. Steps to account for missing and inaccurate data when reporting performance under
GPRA are being considered by EPA, but no decisions have been made. We reiterate our
suggestion that EPA change how it reports under GPRA to compensate for known concerns over
the reliability of this measure.

If you or your staff have any questions, please contact me at (202) 566-0827, or Dan Engelberg,
Director of Water Issues, at (202) 566-0830.




                                                8
                                                                                               Appendix A

               Background, Scope, and Methodology
Background

In 1993, Congress enacted GPRA to shift Federal planning, management, and decision-making
away from a traditional focus on resources and activities to a focus on results and outcomes. The
Office of the Chief Financial Officer and program offices produce an annual report to Congress
on the Agency’s progress toward achieving annual strategic goals. In response to GPRA, EPA
established major goals, including “Clean and Safe Water.” One of the sub-objectives under this
goal was “Water [that is] Safe to Drink,” which is designed to reflect the quality of the drinking
water supplied to the population.

In 1999, EPA established a measure of progress toward meeting this sub-objective: by the year
2005, 95 percent of the population served by community water systems would have water that is
safe to drink, meaning that the water meets all applicable health-based standards. As is shown in
Figure 4, over the past 9 years, EPA has reported an increasing percentage of the population
drinking water that meets health-based standards. In its new strategic plan, EPA has retained the
performance sub-objective of water that is safe to drink and the measure of percent of population,
but has extended the timetable to accomplish the objective by 3 years, to 2008.

              Figure 4: Population Reported by EPA Meeting Health Based Standards




    Source: EPA 2002 Drinking Water Factoids. This data is based on the Federal fiscal year, which ends
    September 30. The Draft Report on the Environment reported 94 percent of the population served by community
    water systems drank water that met all health-based standards for the 2002 calendar year.



The drinking water performance measure is based on compliance information contained in
SDWIS/FED. The information utilized from this database is derived by sampling and analyses
of drinking water, and assessments of treatment techniques from the approximately 54,000
community water systems that supply water to 268 million Americans. SDWIS/FED is
designed to support many program management functions, including storing basic water system
information, enforcement actions, and sampling results for unregulated contaminants.

                                                    9
Public water systems are responsible for monitoring their own systems and collecting and
reporting sampling results to a primacy agent (typically State or Tribal drinking water
programs). All States have primacy except for Wyoming. Primacy agents determine
compliance with drinking water regulations and report violations to EPA (via SDWIS/FED).
This process is illustrated in Figure 5. SDWIS/FED contains data when violations of drinking
water standards and mandated treatment techniques are reported into it. To measure program
performance, EPA aggregates the SDWIS/FED data into a national measure of overall
compliance with health-based drinking water standards, which it reports as a percentage.


                                                                Figure 5: SDWIS Data Flow




                                   P W S S D a ta F lo w to S D W IS
                                                       U n d e r S ta te P r im a c y A g r e e m e n t



                            P u b lic
                            W a te r
                            S y s te m s               S a m p lin g
                                                        R e s u lts
                                                                                               V io la tio n s   EPA HQ       EPA
                                                                                   S ta te s
                                                                                                                 S D W IS   R e g io n s
                  W a te r             S a m p lin g
                 S a m p le s           R e s u lts
                                                         S a m p lin g R e s u lts
                                                   B y P W S - S ta te A rr a n g e m e n t



                            C e r tifie d
                               Lab




                Source: EPA Office of Water



Scope and Methodology

We reviewed a database containing the results of a series of contractor-conducted audits (known
as data verifications) of public water system data in State files.5 We used this database to
discuss two sources of errors that affect the precision of the data used in the drinking water
quality measure: (1) errors in the process of reporting drinking water data from States to EPA,
and (2) problems associated with under-reporting of drinking water information because of a
reliance upon an exceptions-based database (meaning that only violations are recorded) for
tracking drinking water violations.

We followed all but one of the applicable Government Auditing Standards, issued by the
Comptroller General of the United States. We were unable to adhere to the standard that we
assess management controls. Specifically, there were no written procedures to document the
flow of information from data verifications into the data verification database. Based on our
discussions with Office of Water staff, we believe that the data in this database were sufficient


5
 We focused on data from community water systems because compliance data from this group are used for the
drinking water GPRA measure.
                                                   10
for the purposes of our review. We followed all other standards for performance audits or
evaluations. All work was completed between August 2002 and September 2003.




                                              11
                                                                                   Appendix B

                               Agency Comments

MEMORANDUM



SUBJECT:        Comments on the Draft Report EPA Reports Meeting Drinking Water Goals
                Despite Persistent Data Quality Shortcomings

FROM:          Benjamin H. Grumbles
               Acting Assistant Administrator

TO:            Nikki L. Tinsley
               Inspector General

Dear Ms. Tinsley:

        Thank you for the opportunity to comment on your office’s draft report, “EPA Reports
Meeting Drinking Water Goals Despite Persistent Data Quality Shortcomings.” I appreciate
your general interest in this issue. The Office of Water recognizes the importance of high
quality data and is committed to continue to make improvements in this area in the drinking
water program as well as across our other activities

         EPA’s data verification audits and associated analyses, which are also the basis for your
draft report, indicate that the data in SDWIS–FED are highly accurate with very few errors, but
are still incomplete. EPA and the states have made significant progress in improving the quality
of SDWIS-FED data since we first became aware of this issue. We acknowledge, however, that
more work remains to be done. EPA’s report, Drinking Water Data Reliability Analysis and
Action Plan (2003), to be released shortly, will highlight our continuing efforts and additional
steps that we intend to take in partnership with states to further improve drinking water data
quality.

       While the Agency does use SDWIS-FED data to meet reporting requirements under the
GPRA, we are aware of the data’s shortcomings and have been diligent in flagging those to key
audiences as well as to the general public. EPA in its GPRA reporting is using the data that is
available to us through the national reporting system. We will continue to explore ways to
communicate the range of issues associated with the nature and quality of SDWIS-FED data
and the relationships to public health risk with your suggestions in mind. We will also continue
to engage in discussions with states regarding potential new approaches for reporting drinking
water data (e.g., electronic transfer of monitoring results from the laboratory to the federal
database).



                                                12
        In a broader context, I would like to note that in the vast majority of instances where
states make compliance determinations these determinations are correct. Most of the
determinations correctly find that public water systems are meeting health-based standards and
thus do not require an entry to be made in SDWIS-FED, which is a violations-only database. I
mention this not to diminish the very real need to improve data quality, but as an important
reminder that SDWIS data quality and drinking water quality are far from synonymous.

       I have attached a more detailed set of comments on specific aspects of the draft to assist
your office as you prepare a final report. Please call Cynthia Dougherty, Director of the Office
of Ground Water and Drinking Water, at (202) 564-3750 if you would like further clarification
on any of these issues.

Attachments

cc:    Kwai-Cheung Chan
       Mike Shapiro
       Cynthia C. Dougherty
       Elizabeth Corr
       Dan Engelberg
       Jill Ferguson
       Linda Pettit-Waldner
       Tim Roach
       Michael Mason




                                               13
         Office of Ground Water and Drinking Water Specific Comments on
                           Draft Inspector General Report,
                  EPA Reports Meeting Drinking Water Quality Goals
                Despite Persistent Data Quality Shortcomings (12/23/03)


1)   In general, the IG draft report addresses two topics EPA is actively engaged in
     analyzing:

     !      The quality of data reported by states to EPA’s database of record, the Safe
            Drinking Water Information System/Federal Version (SDWIS/FED) for public
            water system inventory, violations and enforcement actions, and
     !      The implications of that quality on a Government Performance and Results Act
            (GPRA) measure for populations receiving drinking water from community
            water systems that are in compliance with all health-based standards.

     We are addressing both of these issues through our work internally and with states to
     continue to improve data quality and to identify new ways of communicating its
     significance to the public. We are also at this time near completion of our second
     comprehensive report on the quality of data in SDWIS. We expect to release this final
     report in the near future and will provide a copy to the IG at that time.

2)   The IG draft report characterizes EPA as having “mistakenly” reported meeting its
     drinking water goal under the Government Performance and Results Act (GPRA). In
     actuality, however, we use the best available data reported to us by the states under their
     primacy agreements with the Agency. In using this data to describe results under the
     GPRA, we have tried to be clear that the results are based on the data as reported in
     SDWIS and that our audits indicate that there is incomplete reporting of this data. We
     have also made our first triennial report on SDWIS data quality, published in October
     2000, available to the public on our website. We will soon be making our second report,
     noted above, on data quality available on the web.

3)   EPA’s data verifications indicate that the data the states report to the Agency are very
     accurate, although incomplete.

4)   Several of the IG’s comments, including an incorrect flow chart, indicate the need for
     improved understanding of data flow from public water systems to states to EPA. We
     have prepared a revised flow chart at the same level of detail (attached). We would
     suggest a meeting between OGWDW and the IG’s staff before you finalize your draft
     report to ensure an accurate understanding of key details related to data flow which are
     beyond the depictions in the chart. Such a meeting would also serve as an opportunity
     for us to provide, and discuss where necessary, other detailed edits to the draft report for
     purposes of accuracy.


5)   The draft report includes a chart that depicts data quality improvements, but the draft
     report includes only brief discussion on this point. Specifically, we believe that the draft
                                              14
     report should recognize that data quality has improved based on actions taken jointly by
     EPA and states since 1998. We are concerned that the absence of elaboration on this
     point undercuts the concerted efforts as well as the progress that EPA and states have
     made and are continuing to make.

6)   To achieve a balanced examination, we suggest that the IG evaluate factors that could
     affect the results of data quality calculation in either direction, rather than emphasizing
     only factors that might appear to reduce the reported levels of the population receiving
     safe water all the time. We would like to take this opportunity to draw certain key
     points to the IG’s attention for discussion in the draft report.

     •      In developing our own report, we have been examining the issue of over-
            reported violations. We looked at all the large water systems (over 50,000
            population served) that had been identified as being in violation and found that
            one-third or more had corrected the violations and should not have been reported
            as being in violation in 2001. If considered, this could have the effect of
            increasing the GPRA percentage.

     •      Another noteworthy factor is that for many large water systems (which have the
            greatest effect on the GPRA number) a violation may not affect water quality
            throughout the entire water system, even though for GPRA accounting purposes
            the entire water system is credited with a violation. Quantitative consideration
            of this factor, while challenging to do, would likely contribute additional and
            substantial population to be counted as receiving drinking water which had no
            violation.

     •      A further set of potentially relevant factors is the impact of violation timing,
            frequency and duration on the significance and potential public health
            consequences of violations.

     •      Similarly, the varying nature of violations (e.g., a one-time violation for a
            chronic contaminant versus for an acute contaminant, or a violation significantly
            above the standard versus one that is close to the standard) may have differing
            public health implications.

     We are very interested in finding ways to communicate these complexities succinctly to
     enhance public understanding of the GPRA measure and what it means. We would
     welcome the IG’s comments on these factors.

7)   The draft report characterizes the success of improved drinking water quality (distinct
     from data quality) as the Agency’s result when in fact it is the result of a broad
     partnership that includes EPA, the states that are the primary implementers of the
     national drinking water program and public water systems that carry out the regulatory
     requirements.

8)   An area that the IG touches on in the draft report and which resurfaces in the context of
     the conclusions is the potential impact of monitoring and reporting violations on GPRA
                                              15
      reporting. Monitoring and reporting violations, however, may have no link to whether a
      water system met health-based standards. For instance, where monitoring and reporting
      violations are scattered among numerous water systems that otherwise routinely
      demonstrate that they meet health-based standards, the likelihood of a significant impact
      on EPA’s GPRA reporting is less than if monitoring and reporting violations occur
      repeatedly within the same water systems. We suggest that the IG reconsider whether to
      emphasize this complex issue as part of its conclusions in the absence of further
      analysis.

9)    In the first paragraph on page 7, it is unclear to us whether the IG is discussing the
      utility of the data verification database or the SDWIS database and also unclear as to
      whether the estimates under discussion are the data quality estimates or the GPRA
      number.

      In this and the following paragraph, there also appears to be a misunderstanding about
      the regulatory framework of the SDWA. Under the drinking water program’s regulatory
      structure, health standards for multiple contaminants are addressed within single
      rulemakings. The draft report indicates that data verifications only evaluate eight
      drinking water standards. This is incorrect and affects the IG’s conclusion about
      extrapolating data verification results for data quality purposes and possible “larger
      discrepancies” in the Agency’s GPRA calculation. In fact, EPA’s data verifications
      examined all 87 contaminants that were regulated under the SDWA in 2001 and EPA
      will continue to evaluate all regulated contaminants in future data verifications.

10)   We believe there are a wider range of circumstances affecting shortcomings in the data
      that should be considered in an evaluation, including but not limited to:
      •       Relationship of waivers, variances and exemptions to violation data points;
      •       Conditions in state programs that result in non-reporting of violations;
      •       Methodologies that would improve evaluation and understanding of state
              program processes to determine compliance;
      •       Development of methodologies for estimating the proportion of populations in
              larger water systems actually affected by violations, rather than charging the
              entire water system with a violation that only affects a portion of its population.

11)   Concerning the listing “Stakeholders Identified Other Potential Sources of Error” in
      Appendix B, the draft report does not present an evaluation of these potential sources of
      error nor indications of which may be more problematic. In general, the reference to
      “error” is inappropriate. Some of these appear to be undocumented and/or unevaluated
      opinions about potential sources of error and others are not potential sources of error,
      but rather process vulnerabilities. This particularly applies to the GPRA measure
      section.




                                               16
17
                                                                                  Appendix C

                       Additional OIG Responses

Note to Agency Comment #2:

      We agree that the Agency currently uses the best available data reported by the States
      and has moved in recent years to be more transparent in the presentation of problems
      with SDWIS data. For this reason, we have changed “mistakenly” to “incorrectly” in
      the report. We realize that this isn’t an error of oversight on the part of EPA. However,
      EPA continues reporting that GPRA goals are met while warning about the implications
      of missing data. In our view, correctly reporting whether it has met a performance goal
      is at least as important as disclosing the existence of errors.


Note to Agency Comment #4:

      The final report contains the data flow chart provided by the Office of Water.


Note to Agency Comment #5:

      Protecting and improving the nation’s drinking water quality and drinking water data
      quality is a collective effort with credit for success attributable to many parties. We did
      not intend to reduce the share of credit to any one group by briefly noting data quality
      improvement efforts undertaken in previous years. We did intend to highlight that
      drinking water data quality improvements are a result of activities to improve data
      management systems and processes. The issues regarding the transparency of GPRA
      reporting are the focus of our report, which is why we did not further elaborate on data
      quality improvement activities. However, we have changed our presentation in the final
      report to better reflect the shared responsibility and accomplishments of EPA and its
      partners.


Note to Agency Comment #6, first bullet:

      We agree that the GPRA percentage is affected by water systems with incorrectly
      reported health-based violations. Our review of the data verification database factored
      in 2 such systems out of the 71 that experienced health-based violations. We were
      aware of other drinking water databases, but chose to review only the data verification
      database because of the semi-random sampling methodology used for selecting the 761
      community water systems.




                                              18
General Note to Agency Comment #6:

      These factors all contribute to the complexity of presenting a picture of the nation’s
      drinking water quality for the purposes of GPRA reporting. We suggest that while EPA
      works to address data issues such as those described here, the Agency also more clearly
      report that the absence of drinking water data in SDWIS/FED have an effect on the
      accuracy of the annual GPRA reports.


Note to Agency Comment #7:

      See our response to EPA's Comment 5.


Note to Agency Comment #8:

      EPA’s 2001 and 2002 Annual Performance Reports noted that failures to monitor could
      mask violations of health-based standards (see page 4). We agree with this position.
      We feel that EPA is mistaken in asserting that the impact of GPRA reporting is less if
      M/R violations occur repeatedly in a single water system than if the same number of
      M/R violations are spread among several different systems.


Note to Agency Comment #9

      We clarified language and corrected errors in the draft report.


Note to Agency Comment #10

      We agree that these are important factors that affect the accuracy and validity of the
      GPRA measure. For the purposes of this report, our focus was on the implications of
      reporting success at meeting the drinking water GPRA goal while concurrently reporting
      problems with the completeness of drinking water data.


Note to Agency Comment #11

      We removed references to potential sources of error based on Agency comments.




                                              19
                                                                              Appendix D

                             Report Distribution

Assistant Administrator, Office of Water (4101)
Director, Office of Ground Water and Drinking Water (4607)
Comptroller (2731A)
Agency Followup Official (the CFO) (2710A)
Agency Audit Followup Coordinator (2724A)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator, Office of Public Affairs (1101A)
Inspector General (2410)




                                            20
